Department of Health and Human Services
                   OFFICE OF 

              INSPECTOR GENERAL 



     MEDICARE COMPLIANCE 

      REVIEW OF MEDICAL 

UNIVERSITY OF SOUTH CAROLINA 

FOR THE PERIOD JANUARY 1, 2011, 

    THROUGH JUNE 30,2012 



  Inquiries about this report may be addressed to the Office ofPublic Affairs at 

                           Public.A([airs@oig. hhs.gov. 





                                                    LoriS. Pilcher
                                               Regional Inspector General

                                                      January 2014
                                                      A-04-13-03075
                         Office ofInspector General
                                         https:/ / oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office ofInvestigations
The Office oflnvestigations (01) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the Di strict of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts ofOI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities .
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section BL of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY


Medical University of South Carolina did not fully comply with Medicare requirements for
billing inpatient and outpatient services, resulting in overpayments of approximately $264,140
over 1½ years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year 2011, Medicare paid
hospitals $151 billion, which represents 45 percent of all fee-for-service payments; therefore, the
Office of Inspector General must provide continual and adequate oversight of Medicare
payments to hospitals.

The objective of this review was to determine whether Medical University of South Carolina (the
Hospital) complied with Medicare requirements for billing inpatient and outpatient services on
selected types of claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

The Hospital is a 700-bed medical center located in Charleston, South Carolina. According to
CMS’s National Claims History data, Medicare paid the Hospital approximately $348 million for
14,336 inpatient and 287,802 outpatient claims for services provided to beneficiaries from
January 1, 2011, through June 30, 2012.

Our audit covered $10,630,518 in Medicare payments to the Hospital for 1,307 claims that were
potentially at risk for billing errors. We selected for review a stratified random sample of 182
claims with payments totaling $4,653,211. These 182 claims had dates of service from
January 1, 2011, through June 30, 2012 (audit period), and consisted of 100 inpatient and 82
outpatient claims.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 144 of the 182 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 38 claims, resulting in overpayments of $216,455 for the
audit period. Specifically, 23 inpatient claims had billing errors resulting in overpayments of



Medicare Compliance Review of Medical University of South Carolina (A-04-13-03075)                    i
$169,105, and 15 outpatient claims had billing errors resulting in overpayments of $47,350.
These errors occurred primarily because the Hospital did not have adequate controls to prevent
the incorrect billing of Medicare claims within the selected risk areas that contained errors.

On the basis of our sample results, we estimated that the Hospital received overpayments of at
least $264,140 for the audit period.

WHAT WE RECOMMEND

We recommend that the Hospital:

    •	 refund to the Medicare program $264,140 in estimated overpayments for the audit period
       claims that it incorrectly billed and

    •	 strengthen controls to ensure full compliance with Medicare requirements.

MEDICAL UNIVERSITY OF SOUTH CAROLINA COMMENTS AND OUR
RESPONSE

In written comments on our draft report, the Hospital agreed with our findings related to the 7
claims it incorrectly billed for Inpatient and Outpatient Manufacturer Credits for Replaced
Medical Devices and the 11 claims it incorrectly billed for Evaluation and Management Services.
However, the Hospital disagreed that it incorrectly billed 16 claims for Inpatient Short Stays and
4 claims with High-Severity-Level DRG Codes and stated that it intends to appeal those 20
claims. The Hospital said that it would be providing additional, claim-specific information as
part of its appeal of these 20 claims. We maintain that these claims did not comply with
Medicare billing requirements.

The Hospital also stated that it had reinforced its processes for identifying replaced medical
device cases and had established additional controls to ensure compliant billing. In regard to its
Evaluation and Management Services claims, the Hospital said that it had adopted a manual
intervention for these claims to ensure compliant billing. However, in its written comments, the
Hospital did not describe its reinforced processes, additional controls, or how its manual
intervention worked.




Medicare Compliance Review of Medical University of South Carolina (A-04-13-03075)                   ii
                                                     TABLE OF CONTENTS



INTRODUCTION ........................................................................................................................1


        Why We Did This Review ...................................................................................................1


        Objective ..............................................................................................................................1


        Background ..........................................................................................................................1

          The Medicare Program ....................................................................................................1

          Hospital Inpatient Prospective Payment System ............................................................1

          Hospital Outpatient Prospective Payment System ..........................................................1

          Hospital Claims at Risk for Incorrect Billing ................................................................. 2

          Medicare Requirements for Hospital Claims and Payments .......................................... 2

          Medical University of South Carolina ............................................................................ 3


       How We Conducted This Review......................................................................................... 3


FINDINGS .................................................................................................................................... 3


       Billing Errors Associated With Inpatient Claims .......................................................... 4

            Incorrectly Billed as Inpatient .............................................................................. 4

            Incorrectly Billed Diagnosis-Related Group Codes ................................................ 5

            Manufacturer Credits for Replaced Medical Devices Not Reported.......................... 5


       Billing Errors Associated With Outpatient Claims............................................................... 5

            Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained ........ 5

            Incorrectly Billed Evaluation and Management Services ..............................................6


       Overall Estimate of Overpayments .......................................................................................7


RECOMMENDATIONS .............................................................................................................. 7


MEDICAL UNIVERSITY OF SOUTH CAROLINA COMMENTS AND OFFICE OF

  INSPECTOR GENERAL RESPONSE ................................................................................... 7


APPENDIXES

       A: Audit Scope and Methodology ........................................................................................ 9

       B: Sample Design and Methodology.................................................................................. 11

       C: Sample Results and Estimates ....................................................................................... 14

       D: Results of Review by Risk Area.................................................................................... 15

       E: Medical University of South Carolina Comments ......................................................... 16




Medicare Compliance Review of Medical University of South Carolina (A-04-13-03075)                                                               iii
                                           INTRODUCTION


WHY WE DID THIS REVIEW


This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year 2011, Medicare paid
hospitals $151 billion, which represents 45 percent of all fee-for-service payments; therefore, the
Office of Inspector General (OIG) must provide continual and adequate oversight of Medicare
payments to hospitals.

OBJECTIVE

Our objective was to determine whether Medical University of South Carolina (the Hospital)
complied with Medicare requirements for billing inpatient and outpatient services on selected
types of claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system. The rates vary according to the diagnosis-related group (DRG) to
which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, intended to be payment in full to the hospital for all inpatient
costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services




Medicare Compliance Review of Medical University of South Carolina (A-04-13-03075)                 1
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •   inpatient short stays,

    •   inpatient claims billed with high-severity-level DRG codes,

    •   inpatient and outpatient manufacturer credits for replaced medical devices,

    •   inpatient claims paid in excess of charges,

    •   inpatient claims with cancelled surgical procedures,

    •   inpatient transfers,


    •   outpatient claims billed with evaluation and management (E&M) services, and


    •   outpatient claims billed for Doxorubicin Hydrochloride.


For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (§ 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No. 100­
04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for most
outpatient services (chapter 23, § 20.3).

1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.




Medicare Compliance Review of Medical University of South Carolina (A-04-13-03075)                                  2
Medical University of South Carolina

The Hospital is a 700-bed medical center located in Charleston, South Carolina. According to
CMS’s National Claims History (NCH) data, Medicare paid the Hospital approximately
$348 million for 14,336 inpatient and 287,802 outpatient claims for services provided to
beneficiaries from January 1, 2011, through June 30, 2012.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $10,630,518 in Medicare payments to the Hospital for 1,307 claims that were
potentially at risk for billing errors. We selected for review a stratified random sample of 182
claims with payments totaling $4,653,211. These 182 claims had dates of service from
January 1, 2011, through June 30, 2012 (audit period), and consisted of 100 inpatient and 82
outpatient claims.

We focused our review on the risk areas identified as a result of prior OIG reviews at other
hospitals. We evaluated compliance with selected billing requirements and subjected 46 claims
to medical review to determine whether the services were medically necessary.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology, Appendix B for our sample
design and methodology, and Appendix C for our sample results and estimates.

                                               FINDINGS

The Hospital complied with Medicare billing requirements for 144 of the 182 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 38 claims, resulting in overpayments of $216,455 for the
audit period. Specifically, 23 inpatient claims had billing errors resulting in overpayments of
$169,105, and 15 outpatient claims had billing errors resulting in overpayments of $47,350.
These errors occurred primarily because the Hospital did not have adequate controls to prevent
the incorrect billing of Medicare claims within the selected risk areas that contained errors.

On the basis of our sample results, we estimated that the Hospital received overpayments of at
least $264,140 for the audit period.

For the results of our review by risk area, see Appendix D.




Medicare Compliance Review of Medical University of South Carolina (A-04-13-03075)                 3
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 23 of the 100 inpatient claims that we reviewed.
These errors resulted in overpayments of $169,105.

Incorrectly Billed as Inpatient

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Act, § 1862(a)(1)(A)). The Act also precludes payment to any
provider without information necessary to determine the amount due the provider (§ 1815(a)). In
addition, a payment for services furnished to an individual may be made only to providers of
services that are eligible and only if, “with respect to inpatient hospital services … which are
furnished over a period of time, a physician certifies that such services are required to be given
on an inpatient basis for such individual’s medical treatment…” (§ 1814(a)(3)). Federal
regulations state that Medicare Part A pays for inpatient hospital services only if a physician
certifies and recertifies, among other things, the reasons for continued hospitalization (42 CFR
§ 424.13(a)).

For 16 of the 100 inpatient claims, the Hospital incorrectly billed Medicare Part A for
beneficiary stays that did not meet Medicare criteria for inpatient status and should have been
billed as outpatient. Specifically:

    •	 For three claims, the Hospital incorrectly billed for beneficiaries whose level of care and
       services provided should have been billed as outpatient or outpatient with observation
       services. For example, one patient came to the Hospital for imaging studies and a
       neurologic consultation. The neurologist noted that the patient would be discharged after
       the studies. The medical records did not document that it was reasonable and necessary
       for the patient to be admitted to the Hospital as an inpatient.

    •	 For 12 claims, the beneficiary met the level of care and services provided; however, the
       Hospital incorrectly billed for inpatient services when the medical records did not contain
       sufficient documentation to support the patient’s admission.

    •	 For one claim, the medical record stated that the patient was not to be admitted as an
       inpatient but the Hospital billed it as an inpatient admission.

The Hospital did not offer a cause for these errors because it did not believe the claims were
billed in error. As a result, the Hospital received overpayments of $144,620. 2


2
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
administrative contractor prior to the issuance of our report.




Medicare Compliance Review of Medical University of South Carolina (A-04-13-03075)                                 4
Incorrectly Billed Diagnosis-Related Group Codes

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Act, § 1862(a)(1)(A)). The Manual requires providers to
complete claims accurately so that Medicare contractors may process them correctly and
promptly (chapter 1, § 80.3.2.2).

For 4 of the 100 inpatient claims, the Hospital billed Medicare for incorrect DRG codes.
Medical review determined that the secondary diagnosis code was not sufficiently supported in
the medical record. The Hospital did not offer a cause for these errors because it did not believe
the claims were billed in error. As a result of these errors, the Hospital received overpayments of
$21,985.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require reductions in the inpatient prospective payment for the replacement
of an implanted device if (1) the device is replaced without cost to the provider, (2) the provider
receives full credit for the cost of a device, or (3) the provider receives a credit equal to 50
percent or more of the cost of the device (42 CFR § 412.89). The Manual states that to bill
correctly for a replacement device that was provided with a credit, a hospital must code its
Medicare claims with a combination of condition code 49 or 50 along with value code “FD”
(chapter 3, § 100.8).

For 3 of the 100 inpatient claims, the Hospital received reportable medical device credits from a
manufacturer for a replaced device but did not adjust its inpatient claims with the proper
condition and value codes to reduce payment as required. The Hospital stated that these errors
occurred because some of the claims were not identified by its clinical or revenue system
departments and, therefore, were not appropriately adjusted. As a result, the Hospital received
overpayments of $2,500.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 15 of the 82 outpatient claims that we reviewed.
These errors resulted in overpayments of $47,350.

Manufacturer Credits for Replaced Medical Devices Not Reported or Obtained

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if: (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR




Medicare Compliance Review of Medical University of South Carolina (A-04-13-03075)                    5
§ 419.45). The CMS Provider Reimbursement Manual (PRM) reinforces these requirements in
additional detail (Pub. No. 15-1). 3

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, section
61.3, explain how a provider should report no-cost and reduced-cost devices under the OPPS.
For services furnished on or after January 1, 2007, CMS requires the provider to report the
modifier “FB” and reduced charges on a claim that includes a procedure code for the insertion of
a replacement device if the provider incurs no cost or receives full credit for the replaced device.
If the provider receives a replacement device without cost from the manufacturer, the provider
must report a charge of no more than $1 for the device.

For 4 of the 82 outpatient claims, the Hospital incorrectly billed Medicare for medical devices
that were under warranty.

    •	 For three claims, the Hospital received full credit for replaced devices but did not report
       the “FB” modifier and reduced charges on its claims.

    •	 For one claim, the Hospital did not obtain a credit for a replaced medical device for
       which a credit was available under the terms of the manufacturer’s warranty.

The Hospital stated that these errors occurred because some of the claims were not identified by
its clinical or revenue system departments and, therefore, were not appropriately adjusted. The
Hospital also said that it could not adjust one claim because the claim did not meet timely filing
requirements. In another case, the manufacturer stated that it did not receive the returned
medical device, but, as a result of this audit, the manufacturer issued a credit. As a result, the
Hospital received overpayments of $46,732.

Incorrectly Billed Evaluation and Management Services

The Manual states that a Medicare contractor pays an E&M service that is significant, separately
identifiable, and above and beyond the usual pre- and post-operative work of the procedure
(chapter 12, § 30.6.6(B)). In addition, the Act precludes payment to any provider of services or
other person without information necessary to determine the amount due the provider
(§ 1833(e)).




3
 The PRM states: “Implicit in the intention that actual costs be paid to the extent they are reasonable is the
expectation that the provider seeks to minimize its costs and that its actual costs do not exceed what a prudent and
cost conscious buyer pays for a given item or service” (part I, § 2102.1). Section 2103 further defines prudent buyer
principles and states that Medicare providers are expected to pursue free replacements or reduced charges under
warranties. Section 2103(C)(4) provides the following example: “Provider B purchases cardiac pacemakers or their
components for use in replacing malfunctioning or obsolete equipment, without asking the supplier/manufacturer for
full or partial credits available under the terms of the warranty covering the replaced equipment. The credits or
payments that could have been obtained must be reflected as a reduction of the cost of the equipment.”




Medicare Compliance Review of Medical University of South Carolina (A-04-13-03075)                                 6
For 11 of the 82 outpatient claims, the Hospital incorrectly billed Medicare for HCPCS codes
appended with modifier -25 4 that were incorrect for the services provided.

    •	 For nine claims, medical review determined that, based on the procedure identified in the
       medical records, E&M services on the same day of the procedure are not allowable.

    •	 For two claims, documents in the medical records were not sufficient to support the E&M
       services billed.

The Hospital did not offer a cause for these errors because it did not believe the claims were
billed in error. As a result of these errors, the Hospital received overpayments of $618.

OVERALL ESTIMATE OF OVERPAYMENTS

On the basis of our sample results, we estimated that the Hospital received overpayments totaling
at least $264,140 for the audit period.

                                          RECOMMENDATIONS

We recommend that the Hospital:

    •	 refund to the Medicare program $264,140 in estimated overpayments for the audit period
       claims that it incorrectly billed and

    •	 strengthen controls to ensure full compliance with Medicare requirements.

    MEDICAL UNIVERSITY OF SOUTH CAROLINA COMMENTS AND OFFICE OF
                    INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Hospital agreed with our findings related to the 7
claims it incorrectly billed for Inpatient and Outpatient Manufacturer Credits for Replaced
Medical Devices and the 11 claims it incorrectly billed for Evaluation and Management Services.
However, the Hospital disagreed that it incorrectly billed 16 claims for Inpatient Short Stays and
4 claims with High-Severity-Level DRG Codes and stated that it intends to appeal those 20
claims. The Hospital said that it would be providing additional, claim-specific information as
part of its appeal of these 20 claims. We maintain that these claims did not comply with
Medicare billing requirements.

The Hospital also stated that it had reinforced its processes for identifying replaced medical
device cases and had established additional controls to ensure compliant billing. In regard to its

4
  Modifier -25 indicates that on the day of a procedure, the patient’s condition required a significant, separately
identifiable E&M service, above and beyond the usual pre- and post-operative care associated with the procedure or
service performed.




Medicare Compliance Review of Medical University of South Carolina (A-04-13-03075)                                7
Evaluation and Management Services claims, the Hospital said that it had adopted a manual
intervention for these claims to ensure compliant billing. However, in its written comments, the
Hospital did not describe its reinforced processes, additional controls, or how its manual
intervention worked. The Hospital’s comments are included in their entirety as Appendix E.




Medicare Compliance Review of Medical University of South Carolina (A-04-13-03075)                 8
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY


SCOPE


Our audit covered $10,630,518 in Medicare payments to the Hospital for 1,307 claims that were
potentially at risk for billing errors. We selected for review a stratified random sample of 182
claims with payments totaling $4,653,211. These 182 claims had dates of service from
January 1, 2011, through June 30, 2012 (audit period), and consisted of 100 inpatient and 82
outpatient claims.

We focused our review on the risk areas identified as a result of prior OIG reviews at other
hospitals. We evaluated compliance with selected billing requirements and subjected 46 claims
to medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the NCH file, but we did not assess the
completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from April through August 2013.

METHODOLOGY

To accomplish our objective, we:

    •	 reviewed applicable Federal laws, regulations, and guidance;

    •	 extracted the Hospital’s inpatient and outpatient paid claims data from CMS’s NCH File
       for the audit period;

    •	 obtained information on known credits for replaced cardiac medical devices from the
       device manufacturers for the audit period;

    •	 used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

    •	 selected a stratified random sample of 182 claims (Appendix B) totaling $4,653,211 for
       detailed review;

    •	 reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;



Medicare Compliance Review of Medical University of South Carolina (A-04-13-03075)                   9
    •	 reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

    •	 requested the Hospital to conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

    •	 reviewed the Hospital’s procedures for classifying hospital stays (outpatient, observation,
       or inpatient admission), case management, coding, and Medicare claim submission;

    •	 used CMS’s Medicare contractor medical review staff to determine whether 46 sampled
       claims met medical necessity requirements;

    •	 discussed claim errors with Hospital personnel to determine the underlying causes of
       noncompliance with Medicare requirements;

    •	 calculated the correct payments for those claims requiring adjustments;

    •	 used the results of the sample to estimate the Medicare overpayments to the Hospital
       (Appendix C); and

    •	 discussed the results of the review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Medical University of South Carolina (A-04-13-03075)              10
                   APPENDIX B: SAMPLE DESIGN AND METHODOLOGY 


POPULATION 


The population was inpatient and outpatient claims paid to the Hospital for services provided to
Medicare beneficiaries during our audit period.

SAMPLING FRAME

According to CMS's NCH data, for 30 risk areas, Medicare paid the Hospital $348,946,077 for
14,336 inpatient and 287,802 outpatient claims for services provided to beneficiaries during the
audit period. 5

From these 30 risk areas, we selected 8 consisting of 62,212 claims totaling $101,025,599 for
further review.

We then removed the following:

    • 	 $0 paid claims;

    • 	 claims duplicated within individual risk areas by assigning each:

         o 	 inpatient claim that appeared in multiple risk areas to just one category based on the
             following hierarchy: 1) Inpatient Manufacturer Credits for Replaced Medical
             Devices, 2) Inpatient Claims Billed With High-Severity-Level DRG Codes, 3)
             Inpatient Claims Paid in Excess of Charges, 4) Inpatient Short Stays, 5) Inpatient
             Transfers, and 6) Inpatient Claims With Cancelled Surgical Procedures and

         o 	 outpatient claim that appeared in multiple risk areas to just one category based on the
             following hierarchy: 1) Outpatient Manufacturer Credits for Replaced Medical
             Devices, 2) Outpatient Claims Billed With Evaluation and Management Services, and
             3) Outpatient Claims Billed for Doxorubicin Hydrochloride; and

    • 	 claims under review by the Recovery Audit Contractor as of April 17, 2013.

Removing these claims resulted in a sampling frame of 1,307 unique Medicare claims in 8 risk
areas totaling $10,630,518.




5
 Dates of service for claims in the audit period ranged from January I, 20 II, through September 30, 20 I2.
However, we audited only claims that were during the 18-month period of January I, 2011, through June 30, 20I2,
because these claims were final ized per NCH.




Medicare Compliance Review ofMedical University ofSouth Carolina (A-04-13-03075)                              11
                                                                           Number of            Amount of
                              Risk A r ea                                                       Payments
                                                                            Claims
Inpatient and Outpatient Manufacturer Credits for Replaced
Medical Devices                                                                        29           $516,113
Inpatient Claims Billed With High-Severity-Level DRG
Codes                                                                                  432         6,136,753
In patient Claims Paid in Excess of Charges                                             16         3, 198,620
Inp atient Short Stay s                                                                 56           426,014
Outpatient Claims Billed With Evaluation and Management
Services                                                                             732             156,416
Inpatient Transfers                                                                    1              30,354
Inpatient Claims With Cancelled Surgical Procedures                                    4              35,513
Outpatient Claims Billed for Doxorubicin Hydrochloride                                37             130,735
     Total                                                                         1,307         $10,630,518

SAMPLE UNIT

The sample unit was a Medicare paid claim.

SAMPLE DESIGN

We used a stratified random sample. We divided the sampling frame into 8 strata based on risk
area.

SAMPLE SIZE

We randomly selected 182 claims for review as follows:

                                                                                             Claims in
         Stratum                                Risk Area
                                                                                              Sample
              1        Inpatient and Outpatient Manufacturer Credits for
                       Replaced Medical Devices                                                     29
             2         Inpatient Claims Billed With High-Severity-Level
                       DRG Codes                                                                    35
             3         Inpatient Claims Paid in Excess of Charges                                   16
             4         Inpatient Short Stays                                                        30
             5         Outpatient Claims Billed With Evaluation and
                       Management Services                                                          30
             6         Inpatient Transfers                                                           1
             7         Inpatient Claims With Cancelled Surgical Procedures                           4
             8         Outpatient Claims Billed for Dox orubicin
                       Hydrochloride                                                                37
                          Total                                                                    182




Medicare Compliance Review of Medical University ofS outh Carolina (A-04-13 -030 75)                        12
SOURCE OF RANDOM NUMBERS

We generated the random numbers using the Office of Inspector General, Office of Audit
Services (OIG/OAS) statistical software.

METHOD FOR SELECTING SAMPLE UNITS

We consecutively numbered the claims within strata 2, 4, and 5. After generating the random
numbers for strata 2, 4, and 5, we selected the corresponding claims in each stratum. We
selected all claims in strata 1, 3, 6, 7, and 8.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the total amount of Medicare
overpayments paid to the Hospital during the audit period.




Medicare Compliance Review of Medical University of South Carolina (A-04-13-03075)            13
                     APPENDIX C: SAMPLE RESULTS AND ESTIMATES

SAMPLE RESULTS

                                                                               Number of
                                                                               Incorrectly
                Frame                                                             Billed            Value of
                  Size          Value of     Sample           Value of          Claims in        Overpayments in
    Stratum    (Claims)          Frame         Size           Sample             Sample              Sample
       1           29               $516,113 29                  $516,113           7                      $49,232
       2          432              6,136,753 35                   481,831           4                       21,985
       3           16              3,198,620 16                 3,198,619           0                            0
       4           56                426,014 30                   254,337          16                      144,620
       5          732                156,416 30                     5,709          11                          618
       6            1                 30,354    1                  30,354           0                            0
       7            4                 35,513    4                  35,513           0                            0
       8           37                130,735 37                   130,735           0                            0
     Total       1,307          $10,630,518 182                $4,653,211          38                    $216,455

ESTIMATES

                      Estimated Value of Overpayments for the Audit Period
                       Limits Calculated for a 90-Percent Confidence Interval

                                        Point Estimate              $334,276
                                        Lower limit                 $264,140 6
                                        Upper limit                 $426,398




6
 In accordance with OAS policy, we did not use the results from stratum 2 in calculating the estimated
overpayments. Instead, we added the actual overpayments from stratum 2 ($21,985) to the lower limit ($242,155),
which resulted in an adjusted lower limit of $264,140.




Medicare Compliance Review of Medical University of South Carolina (A-04-13-03075)                            14
                    APPENDIX D: RESULTS OF REVIEW BY RISK AREA



                                                              Value of           Claims             Value of
                                            Selected          Selected          With Over­           Over­
              Risk Area                     Claims            Claims            payments            payments
  Inpatient

  Short Stays                                        30           $254,337                  16         $144,620
  Claims Billed With High­
                                                     35            481,831                    4           21,985
  Severity-Level DRG Codes
  Manufacturer Credits for
                                                     14            286,616                    3                2,500
  Replaced Medical Devices
  Claims Paid in Excess of
                                                     16          3,198,619                    0                   0
  Charges
  Claims With Cancelled Surgical
                                                      4              35,513                   0                   0
  Procedures
  Transfers                                           1              30,354                   0                   0

    Inpatient Totals                               100          $4,287,270                  23         $169,105

  Outpatient
  Manufacturer Credits for
                                                     15           $229,497                    4          $46,732
  Replaced Medical Devices
  Claims Billed With Evaluation
                                                     30               5,709                 11                  618
  and Management Services
  Claims Billed for Doxorubicin
                                                     37            130,735                    0                   0
  Hydrochloride
    Outpatient Totals                                82           $365,941                  15           $47,350

  Inpatient and Outpatient
                                                   182          $4,653,211                  38         $216,455
  Totals
        Notice: The table above illustrates the results of our review by risk area. In it, we have organized
        inpatient and outpatient claims by the risk areas we reviewed. However, we have organized this
        report’s findings by the types of billing errors we found at Medical University of South Carolina.
        Because we have organized the information differently, the information in the individual risk areas
        in this table does not match precisely with this report’s findings.




Medicare Compliance Review of Medical University of South Carolina (A-04-13-03075)                                 15
             APPENDIX E: MEDICAL UNIVERSITY OF SOUTH CAROLINA

                                COMMENTS





      MEDICAL UNIVERSITY
      OF SOUTH CAROLI NA
     Hospital Compliance Office
        169 Ashley Avenue
             MSC332
      01arlcston, SC 29425
        (843) 792-7795
      Fax (843) 792-5114


     D ecember 19, 2013
     Ms. Lori S. Pilcher
     Regional Inspector General for Audit Services
     Office oflnspector General
     Department ofHealth and Human Services
     61 Forsyth St. SW
     Suite 3T41
     Atlanta, GA 30303

     Re: Report Number: A -04-13-03075

     Dear Ms. Pilcher:
     MUSC Medical Center is in receipt of the above referenced draft audit report. In the report, the
     OTG concludes that 38 claims in five risk areas were submitted by MUSC to Medicare in error.
     It is our understanding that in previous, similar audits the OIG allowed providers to avail
     themselves of a more robust appeals process prior to publishing audit results. MUSC has been
     informed that our results will be published prior to any further appeals process. When we have
     appealed similar denials under CMS's Recovery Audit Contractor program, we have experienced
     an extremely high rate of claims being overturned in our favor. We are confident we will see
     similar results after we are given the opportunity to appeal these cases through that process.
     Below is our response to the O IG ' s findings in each risk area.

        1) Short Stay: We respectfully disagree with the OIG's findings on all 16 claims in this
           category ($144,620) and plan to appeal each ofthem. We will be happy to share the
           results of the appeals on these claims once that process is complete.
        2) DRG: As is the case with the short stay claims, we respectfully disagree with the
           findings on the four claims in this category ($21 ,985) and plan to appeal each ofthem.
           We w ill be happy to share the results of the appeals on these claims once that process is
           complete.
        3) Replaced Medical Devices - Inpatient: We agree with the OIG's findings on the three
           claims in this category ($2,500). We have reinforc.e d our processes for identifying
           replaced medical device cases, and have established additional controls to ensure
           compliant billing in this area.
        4) Replaced Medical Devices - Outpatient: We agree with the OIG's findings on the four
           claims in this category ($46,732). See #3.
        5) Evaluation and Management Services: We agree with the OlG's findings on the 11
           claims in this category ($6 18). We have adopted a manual intervention for these claims
           to ensure compliant billing in this area.




Medicare Compliance Review of Medical University of South Carolina (A-04-13-03075)                      16
        summary, we are in agreement with 18 claim findings ($49,850), and we disagree with 20
     claim findings ($166,605). We will be providing additional, claim-specific information as part of
     our appeal for those claims on which we disagree. We want to thank you for the professional
     way in which the audit was conducted, and for carefully considering our comments in meetings
     and in prior drafts.

     Best Personal Regards,

      t{L-~.(7!_
     Reece H. Smith
     Chief Compliance Officer

     cc: Stephen Hargett, Chief Financial Officer
         S. David McLean, Senior Legal Counsel




Medicare Compliance Review of Medical University of South Carolina (A-04-13-03075)                       17
